TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Instilling More Discipline to
                   Business Rules Management Will Help the
                       Modernization Program Succeed



                                         December 2005

                              Reference Number: 2006-20-009




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                December 14, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Instilling More Discipline to Business Rules
                                Management Will Help the Modernization Program Succeed
                                (Audit # 200520013)

 This report presents the results of our review of business rules harvesting1 and management as
 part of the Internal Revenue Service’s (IRS) Business Systems Modernization (BSM) program.
 The overall objectives of this review were to assess the process for considering use of business
 rules engine2 technology, determine whether business rules harvesting activities will be timely
 completed, and determine whether the adequacy of actions taken to address the BSM Challenge
 Issues related to the business rules management activities. This review is part of the Treasury
 Inspector General for Tax Administration Fiscal Year 2005 Information Systems Programs audit
 plan for reviews of the IRS’ modernization efforts.

 Synopsis
 A business rules approach is a formal process to manage and automate an organization’s
 policies, procedures, and guidelines (or business rules) allowing business people to initiate
 changes to the business rules. In the IRS, business rules are principally representations of tax
 laws, tax administration policies, and tax forms. To define the business rules approach for its
 BSM program, the IRS created the Business Rules Management initiative in 2003. The Business



 1
   A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
 used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
 business rules for a particular scope.
 2
   A business rules engine translates business rules, or processing criteria, into executable computer code which
 processes transactions related to a tax form and selects and executes correct rules based on the tax year and tax form.
                     Instilling More Discipline to Business Rules Management
                            Will Help the Modernization Program Succeed



Rules Management initiative provides a foundation for the IRS to manage business rules
enterprise-wide.
The Customer Account Data Engine (CADE) project is the foundation for managing taxpayer
accounts in the IRS modernization plan. The CADE consists of databases and related
applications that will replace the existing Master Files, the IRS’ central and official repository of
taxpayer information. The CADE is considering using the business rules approach with a
business rules engine. A business rules engine is the software that executes business rules. For
the CADE, a business rules engine would process transactions related to a tax form and select
and execute correct rules based on the tax year and tax form.
In late 2003, the IRS developed a process to address modernization program findings following
several independent studies. The IRS responded to these studies with action items, referred to as
challenge issues. One challenge issue involved the Business Rules Management process, and
another focused on the Business Rules End-to-End Prototype Project.
Work resulting from the Business Rules Management challenge issue included testing a pilot
business rules methodology, establishing evaluation criteria for proposals to acquire a business
rules repository, and initiating the Submission and Settlement Harvesting Project (SSHP) in
March 2005. One goal of the SSHP is to identify business process redesign opportunities for the
submission and settlement aspects of electronic tax return processing.
Our reviews of the SSHP identified the need to improve project management activities to help
ensure the Project’s success. We found the Business Rules Office needs to incorporate its
current approach to business rules harvesting and management into the Modernization Vision
and Strategy being developed by the Associate Chief Information Officer (CIO), BSM. In
addition, we determined recommendations from the independent technical review were not
timely considered to ensure effective Project Management Plan development. We also
determined the SSHP Project Management Plan has not been completed and approved.
Further, the business rules repository acquisition is at risk of not being procured in time to meet
the CADE Release 3 planning needs. Although the Business Rules Office planned for operation
by January 2006, the CADE project team requested the new repository be operational by
October 1, 2005, to allow for use of the new tool during training for CADE Release 3 planning
activities. Additionally, the Business Rules Office needs to ensure the acquired repository will
have the ability to manage business rules in a manner meeting the needs and requirements of the
Configuration Management Office.
The other CADE challenge issue relates to the Business Rules End-to-End Prototype Project,
which had goals to determine if and when to use business rules engine technology, programming
languages, or a combination of the two in implementing business rules within IRS systems such
as the CADE and validating the business rules harvesting methodology. Work started on the
Business Rules End-to-End Prototype in February 2005, and results were timely reported in

                                                                                                    2
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



August 2005. The Project activities included business rules governance, metrics creation,
business rules harvesting, project design, development, and testing. The Business Rules
End-to-End Prototype results determined a business rules engine is not a prerequisite for any
CADE applications and showed a business rules engine should be considered only when
specified criteria are met. While the Business Rules End-to-End Prototype was performed
timely, performance and cost issues need to be addressed to fully assess the IRS’ ability to
successfully use a business rules engine.

Recommendations
We recommended the CIO direct the Business Rules Office to incorporate the results of the
SSHP efforts to redesign business opportunities and identify associated technical capabilities into
the Modernization Vision and Strategy being developed by the Associate CIO, BSM. Actions
also need to be taken to ensure independent validations of project work plans are performed;
recommendations are addressed prior to beginning project execution; and the SSHP Project
Management Plan is completed, approved, and updated. Further, the CIO should ensure the
Business Rules Office coordinates with the Configuration Management Office to clarify
configuration management roles and processes for use of a business rules repository. The CIO
should ensure performance testing and a cost analysis are completed before making any decision
to use business rules engine technology in the CADE project.

Response
IRS management agreed with the recommendations presented. The SSHP Final Report will be
provided to the Modernization Vision and Strategy leadership team for inclusion in the
development of the modernization strategy report. The Deputy Associate CIO, Business
Integration and Process Management, plans to update the Project Management Plan Data Item
Description with guidance on the appropriate use and management of independent validations of
project work plans, and the SSHP Project Management Plan was completed and approved in
October 2005. The team developing the requirements for the business rules repository met with
the Configuration Management Office and solicited its input; the Configuration Management
Office confirmed its concurrence with the roles and processes that the Business Rules
Management Office will use to manage the repository. IRS management decided not to use a
business rules engine in CADE Releases 2 and 3. Modernization efforts going forward will
continue to employ the Package Evaluation and Selection methodology if the IRS determines
that a business rules engine software package offers an opportunity for a specific solution within
modernization projects. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
                                                                                                 3
                   Instilling More Discipline to Business Rules Management
                          Will Help the Modernization Program Succeed



Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program),
at (202) 622-8510.




                                                                                         4
                           Instilling More Discipline to Business Rules Management
                                  Will Help the Modernization Program Succeed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Is Beginning to Manage Business
          Rules in Support of the Modernization Program and the
          Customer Account Data Engine....................................................................Page 3
          The Business Rules Office Needs to Incorporate Its Current Approach
          Into the Modernization Vision and Strategy.................................................Page 4
                    Recommendation 1:........................................................Page 7

          Recommendations From the Independent Technical Review
          Were Not Timely Considered to Ensure Effective Project
          Management Plan Development ...................................................................Page 7
                    Recommendation 2:........................................................Page 9

          The Submission and Settlement Harvesting Project Management Plan
          Has Not Been Completed and Approved......................................................Page 9
                    Recommendation 3:........................................................Page 10

          The Business Rules Repository May Not Be Procured Timely and
          Needs to Meet Requirements of All Customers ...........................................Page 11
                    Recommendation 4:........................................................Page 13

          Additional Actions Are Needed to Ensure the Successful Integration
          of Business Rules Engine Technology .........................................................Page 13
                    Recommendation 5:........................................................Page 15


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
                Instilling More Discipline to Business Rules Management
                       Will Help the Modernization Program Succeed



Appendix IV – Criteria for the Selection of a Business Rules Engine .........Page 20
Appendix V – Enterprise Life Cycle Overview............................................Page 21
Appendix VI – Overview of the Standards for Internal Control
in the Federal Government ...........................................................................Page 26
Appendix VII – Management’s Response to the Draft Report.....................Page 30
                       Instilling More Discipline to Business Rules Management
                              Will Help the Modernization Program Succeed




                                            Background

A business rules approach is a formal process to manage and automate an organization’s
policies, procedures, and guidelines (or business rules) allowing business people to initiate
changes to the rules. In the Internal Revenue Service (IRS), business rules are principally
representations of tax laws, tax administration policies, and tax forms. To define the business
rules approach for its Business Systems Modernization (BSM) program, the IRS created the
Business Rules Management initiative in 2003. The Business Rules Management initiative
provides a foundation for the IRS to manage business rules enterprise-wide.
The Customer Account Data Engine (CADE) project is the foundation for managing taxpayer
accounts in the IRS modernization plan. The CADE consists of databases and related
applications that will replace the IRS’ existing Master File processing systems. The Master Files
are the IRS’ central and official repository of taxpayer information. The CADE is considering
using the business rules approach with a business rules engine. A business rules engine is the
software that executes business rules. For the CADE, a business rules engine would process
transactions related to a tax form and select and execute correct rules based on the tax year and
tax form.
The IRS initiated the CADE project in September 1999. In August 2004, the IRS delivered
CADE Release 1.1,1 which successfully processed refund and even-balance Forms 1040EZ2 for
single taxpayers with no pending tax issues. CADE Release 1.2 started processing tax returns in
January 2005.
The CADE’s March 28, 2001, Baseline Business Case presented plans by the PRIME contractor3
to use a business rules engine for the CADE project. The CADE Baseline Business Case
targeted January 2002 as the delivery date for Release 1. The development of the CADE project
was revised in August 2003 to use a business rules approach with a business rules engine for
CADE Release 2, which was scheduled to begin operation in July 2005. Since August 2003, the
IRS has scaled back the scope of CADE Release 2 by continuing to use the C++4 programming
language and deferring use of a business rules engine.



1
  A release is a specific edition of software.
2
  Form 1040EZ is the Income Tax Return for Single and Joint Filers With No Dependents. The initial release of the
CADE does not process Forms 1040EZ for joint filers.
3
  The PRIME contractor is an alliance of leading technology companies brought together to assist with the IRS’
efforts to modernize its computer systems and related information technology.
4
  Programmers can write or code software programs using several different programming languages. C++ is an
object-oriented, high-level programming language developed by Bell Labs.
                                                                                                          Page 1
                       Instilling More Discipline to Business Rules Management
                              Will Help the Modernization Program Succeed



The IRS made this decision in part because of an independent technical assessment released by
the Software Engineering Institute at the request of the IRS.5 In its October 2003 report, the
Software Engineering Institute concluded the business rules engine selected for consideration by
the PRIME contractor may not be compatible in translating IRS tax laws, tax administration
policies, and tax forms. In addition, the study indicated the need to harvest and document the
business rules is independent of the choice of a specific business rule engine and is necessary for
the success of modernization. The report also pointed out the IRS was behind schedule in
implementing its business rules approach.
This review is the fourth in a series of reviews related to the CADE project activities and was
performed at the Business Systems Modernization Office (BSMO) facilities in
New Carrollton, Maryland, during the period March through August 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




5
 Report of the Independent Technical Assessment on the Internal Revenue Service Business Systems Modernization
Customer Account Data Engine, dated October 2003.
                                                                                                       Page 2
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed




                                       Results of Review

The Internal Revenue Service Is Beginning to Manage Business Rules
in Support of the Modernization Program and the Customer Account
Data Engine
In late 2003, the IRS developed a process to address modernization program findings following
several independent studies. The IRS responded to these studies with action items, referred to as
challenge issues. One challenge issue involved the Business Rules Management process, and
another focused on the Business Rules End-to-End Prototype Project.

Business Rules Management
Work resulting from the Business Rules Management Challenge issue included initiating the
Submission and Settlement Harvesting Project (SSHP) in March 2005, testing a pilot business
rules methodology, and establishing evaluation criteria for proposals to acquire a business rules
repository.
The goals of the SSHP are to identify business process redesign opportunities for the submission
and settlement aspects of electronic tax return processing, allocate high-level business rules sets
to modernized systems such as the CADE, and identify architectural alternatives such as
potential reuse of the current processing environment. The SSHP execution activities began in
March 2005, with completion targeted for November 2005. During the period of our review, the
SSHP team assembled a technical team, completed initial business workshops, developed
business rules groups or sets for identifying individual taxpayers and settling their accounts,
developed the basic design for the future submission and settlement process applications, and
mapped current business processes to current business systems. The SSHP team also developed
a risk log to document the management of project risks and their resolution. In April 2005, the
SSHP team transferred its control and documentation of risks to the Issue Tracking and Risk
Control System.
The goal of the business rules repository acquisition is to procure a business rules management
environment (software tools) to support the harvesting,6 storage, management, and allocation of
business rules enterprise-wide. The business rules repository acquisition team was originally
scheduled to select a vendor by October 2005, with initial operation targeted for January 2006.



6
 Harvesting is the general term used to broadly describe the entire set of activities involved in gathering,
formalizing, analyzing, and validating business rules for a particular scope.
                                                                                                               Page 3
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



During the period of our review, the business rules repository acquisition team conducted a
30-day study to justify the acquisition of a repository and solicited interest from 6 companies.

The Business Rules End-to-End Prototype Project
Work resulting from the Business Rules End-to-End Prototype challenge issue included
completing the Business Rules Engine Performance Study and addressing results of the CADE
Engineering Analysis Study. The Business Rules End-to-End Prototype team also completed a
project work plan and awarded a Business Rules End-to-End Prototype contract.
The goals of the Business Rules End-to-End Prototype were to determine if and when to use
business rules engine technology, programming languages, or a combination of the two to
implement business rules within IRS systems such as the CADE and to validate the business
rules harvesting methodology. Work started on the Business Rules End-to-End Prototype in
February 2005, and results were reported during August 2005. During the period of our review,
the IRS reported the Business Rules End-to-End Prototype team set up the development and test
environments for the business rules engine and C++ programming language, presented an
approved approach to measure project results, performed business rules testing, and timely
delivered the final report.

Creation of the Business Rules Office
In addition to the above challenge issue and project team accomplishments, the IRS created the
Business Rules Office within the BSMO Business Integration Office. The Business Rules Office
is responsible for managing and ensuring the success of the SSHP and the business rules
repository acquisition. Additionally, the establishment of the Business Rules Office included
chartering the Business Rules Advisory Board, the purpose of which is to ensure the successful
achievement of Business Rules Office project goals. The Board includes executives from the
BSMO’s Business Integration Office and Enterprise Architecture Office, the Wage and
Investment Business Unit, the PRIME contractor, and the Science Applications International
Corporation.
As each release of the CADE processes additional taxpayer segments and becomes increasingly
more complex, sound business rules management practices need to be in place to ensure success.
This is particularly true for upcoming CADE releases that take on more complex capabilities
such as adding new tax forms, processing accounts with closed issues, and updating active
accounts.

The Business Rules Office Needs to Incorporate Its Current Approach
Into the Modernization Vision and Strategy
The BSM program’s goal is to redesign business practices with new technology. This process
builds on the organizational modernization effort that resulted in a new, customer-focused IRS

                                                                                             Page 4
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



that started in October 2000. As the modernization effort progressed, modifications to the
approach were made. These modifications were necessary to meet revisions to project
development plans and to incorporate new or different technology capabilities.
The CADE project, the foundation for managing taxpayer accounts in the IRS modernization
plan, has undergone many modifications to meet its goals. The approach to the CADE project’s
development includes the following events and modifications:
   •   March 2001 – The CADE Baseline Business Case stated, “A rules engine approach is
       better than the traditional programming approach because it reduces the time and effort to
       create and maintain the business logic.”
   •   November 2001 – The IRS was unable to secure a business rules engine vendor, which
       resulted in a complete shift in execution philosophy when the PRIME contractor
       implemented business rules using C++ programming instead of using business rules
       engine programming in the CADE.
   •   October 2003 – The Software Engineering Institute reported, “Modernization depends
       on [the] CADE, and [the] CADE depends on harvested business rules.” The Software
       Engineering Institute went on to state that, while the business rules approach is
       conceptually sound, business rules engines have not been demonstrated in the CADE
       environment.
   •   March 2004 – To assist in addressing the Software Engineering Institute
       recommendations, the Business Rules Enterprise Management project began to define the
       business rules approach and provide a foundation for the IRS to manage its business rules
       from an enterprise-wide perspective. This approach will allow the IRS business units and
       functional organizations to initiate changes to their information systems at the business
       rule level, keeping them in line with changes to their business policies and the Internal
       Revenue Code.
   •   August 2004 – The Business Rules Engineering Management team addressed the
       Software Engineering Institute recommendations by conducting a pilot focused on
       process analysis, process redesign, and business rules harvesting. The pilot established
       an interim business rules repository populated with data from the pilot.
   •   December 2004 – The Business Rules Engineering Management team reported the IRS
       is considering using existing processing systems to support modernization projects such
       as the CADE.
   •   February 2005 - The SSHP developed its goals and process redesign analysis to include
       the use of existing systems to support modernization projects.




                                                                                             Page 5
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



   •   August 2005 – The Business Rules End-to-End Prototype Project recommended only
       limited use of business rules engine technology within the CADE and use of C++
       programming language for the majority of the continuing work.
Due to the various approaches to using the business rules concept and the various studies
conducted since 2001, the CADE project approach to business rules has also changed over time.
The Business Rules Office project activities that are currently being completed will also change
CADE development plans.
The Business Rules Office initially considered developing and harvesting business rules for the
entire modernized environment. In performing project activities, such as the SSHP, the Project
team identified significant system and manual activity redundancies. In analyzing the
redundancies, the Business Rules Office recognized the opportunity to consider program
development alternatives. The Office intends to document the modifications resulting from these
alternatives through business rules harvesting. The business rules harvesting activity will need to
tie the existing process documentation to the modernized system’s business rules. The
modernization program development alternatives include:
   •   Combining existing current processing into the modernized environment. An
       example may involve tying existing processing documentation for validating the identity
       of a taxpayer account into the CADE’s business rules.
   •   Reengineering existing processes. An example may involve incorporating various
       taxpayer account interest calculations into the modernized environment’s business rules.
   •   Incorporating commercial off-the-shelf software.
   •   Developing business rules for new project development.
The SSHP team is in the process of identifying and proposing reuse of aspects of the current
processing environment and potential use of commercial off-the-shelf applications. It is also
anticipating the potential effect of using business rules engine technology in determining the
scope of business rules to be developed. Comprehensive plans to accept business rules from
different sources (e.g., the IRS business operating divisions and functional organizations) during
the course of project development have not been made. Developing a process to include the
input from the IRS operating divisions’ functional organizations will allow the Business Rules
Office teams to successfully identify, harvest, and manage business rules.
As presented above, the evolving approaches to CADE development indicate a need to clearly
articulate and document the IRS plans for using business rules and a business rules engine in
future CADE development work so the IRS and external stakeholders (e.g., Congress) have a
clear understanding of the IRS plans for the CADE and its use of business rules. In addition, the
BSMO’s and IRS business operating divisions’ roles and responsibilities for identifying,
capturing, controlling, and documenting the business rules harvesting approach need to be
clearly defined.
                                                                                            Page 6
                        Instilling More Discipline to Business Rules Management
                               Will Help the Modernization Program Succeed



Recommendation
Recommendation 1: The Chief Information Officer (CIO) should direct the Business Rules
Office to incorporate its results of the SSHP efforts to redesign business opportunities and
identify associated technical capabilities into the Modernization Vision and Strategy being
developed by the Associate CIO, BSM. The plans should define roles and responsibilities of the
various IRS components and provide direction for using the appropriate business rules approach
to fully realize the benefits of combining existing current processing environment, reengineering
existing processes, incorporating commercial off-the-shelf software, and developing business
rules for new project development.
        Management’s Response: The CIO agreed with this recommendation, stating the
        Director, Business Rules and Requirements Management, will provide the SSHP Final
        Report to the Modernization Vision and Strategy leadership team for inclusion in the
        development of the modernization strategy report.

Recommendations From the Independent Technical Review Were Not
Timely Considered to Ensure Effective Project Management Plan
Development
The Enterprise Life Cycle (ELC)7 prescribes the use of a Project Management Plan to define the
project, the scope of work to be performed, and the project activities and deliverables. The
Technical Contract Administration Guide8 requires an independent technical review of the
Project Management Plan to validate and integrate relevant recommendations into the Plan. The
SSHP team began performing project work on March 1, 2005; however, the IRS did not issue a
work request soliciting an independent technical review to validate the SSHP Project
Management Plan until March 29, 2005. The independent technical review results were issued
May 3, 2005, 2 months after the SSHP team began work.
SSHP management stated the work request for the contractor’s independent technical review was
issued late because the technical approach for SSHP activities was not fully agreed to until
March 29, 2005. SSHP management further stated contractor support was used in developing
the overall plan and methodology, and it was not unusual to request an outside review after some
work had already started.




7
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of systems development and ensures alignment with the overall business strategy. Appendix V presents an
overview of the components of the ELC.
8
  The Technical Contract Administration Guide provides contract guidance to the IRS, including roles and
responsibilities, and identifies required services and products by project milestone.
                                                                                                            Page 7
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed



Without assurance that the activities and schedule are validated prior to executing the Project
Management Plan, the SSHP is at a higher risk of not attaining its stated goals within the targeted
dates established. Validating the Project Management Plan after the start of the Project’s
execution phase puts the SSHP at a higher risk of not timely allocating resources to capture
sufficient business rule sets9 to meet its Project goals. One of these goals is to capture business
rule sets to enable the CADE Release 3 planning activities, scheduled to begin in January 2006.
The independent technical review results presented 14 recommendations to improve the Project
Management Plan. As of June 14, 2005, only 4 of the 14 recommendations had been completed,
and the status of the remaining 10 recommendations was unknown. The recommendations stress
immediate attention to increase the likelihood of the SSHP team effectively completing its work
on schedule. For example, 4 of the 10 open recommendations identify inadequate resource
assignments within the SSHP Project Management Plan, with approximately 10 percent of the
activities not having resources assigned. The report also states it is critical for the technical
SSHP team to know precisely what work is to be produced, by whom, and when.
Specifically related to inadequate resource assignments, the independent review recommended
the SSHP team:
    •    Define specific project roles.                                              Recommendations were
                                                                                     made to provide details
    •    Create a list of the available technical resources and list                  about identifying and
         the roles each person is qualified to fulfill.                            assigning project resources.

    •    Ensure there is coverage for each activity.
    •    Review the activity assignments with responsible individuals and obtain concurrence.
IRS management followed up on the technical review recommendations and advised us on
July 29, 2005, the remaining 10 recommendations were either resolved or no longer relevant to
the SSHP Project Management Plan. However, documentation to support resolution of these
recommendations could not be provided. The best practices of the Office of Management and
Budget and the Government Accountability Office stress significant events need clear
documentation that should be readily available for examination. Appendix VI presents an
overview of the Government Accountability Office Standards for Internal Control in the Federal
Government.
Adequate and timely consideration of the technical review recommendations will help complete
development of an effective Project Management Plan. Without documentation to track
management’s decisions about the disposition of the recommendations, Project Management
Plan development may not include all agreed additions or adjustments to plan activities and
resources.

9
 A business rule set is a logical group of business rules around a business process, such as the business rules that
verify Taxpayer Identification Numbers.
                                                                                                               Page 8
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



Recommendation
Recommendation 2: When independent validations of project work plans are to be
performed, the CIO should ensure independent validations of project work plans are performed
and recommendations are addressed prior to beginning project execution. This practice would
help ensure planned activities and target dates are reasonable and independent validation
recommendations are adequately resolved and documented.
       Management’s Response: The CIO agreed with this recommendation, stating the
       Deputy Associate CIO, Business Integration and Process Management, will update the
       Project Management Plan Data Item Description to incorporate guidance and criteria on
       appropriate use and management of independent validations of project work plans.

The Submission and Settlement Harvesting Project Management Plan
Has Not Been Completed and Approved
The SSHP Project Management Plan and its detailed work plan schedule have not yet been
approved or timely updated. The ELC requires Project Management Plans to be approved by
stakeholders to provide accountability resulting in efficient, repeatable, and auditable
deliverables. It also serves to integrate the business, customers, and other stakeholders with the
project team. In addition, the Internal Revenue Manual requires tracking the actual results and
performance to the Project Management Plan so management can take effective actions if the
project’s performance deviates significantly from the Plan.
As mentioned above, the best practices of both the Office of                The Standards for
Management and Budget and the Government Accountability                   Internal Control in the
                                                                        Federal Government cite
Office stress significant events need clear documentation that             documentation as a
should be readily available for examination. Without clear              means to ensure actions
documentation about activities and accomplishments, managers do            are taken to control
not have a means to recognize deviations or voids in planned                       risks.
activities. Adequate documentation allows managers to identify
significant deviations and take appropriate actions to keep a program on track.
The SSHP Project Management Plan was scheduled to be complete by January 6, 2005.
Segments of the Plan still need to be completed, such as the Project Acceptance Plan and the
Communications Management Plan. The Project Management Plan also is awaiting SSHP
Project management team comments for consideration and inclusion in the Plan, and the
document does not include designations or signatures of approving officials.
The SSHP work plan is part of the Project Management Plan and is designed to track the status
of the Project’s detailed schedule. The latest work plan made available to us was updated on
July 21, 2005. The SSHP Project manager advised us the update to this work plan did not reflect
the current status of the Project’s progress due to resource constraints resulting from the
                                                                                             Page 9
                        Instilling More Discipline to Business Rules Management
                               Will Help the Modernization Program Succeed



unexpected departure of contract personnel assigned to the Project. Additionally, the manager
directed the Project team to focus on project development and deferred the documentation of
project management requirements.
We were advised by BSMO executive management the SSHP was not subject to the ELC
methodology; therefore, a completed and approved Project Management Plan was not required.
Because of the relatively short duration of the SSHP, management determined that following the
ELC methodology was not appropriate.
However, our review of the SSHP documentation identified some project development work was
following ELC guidance and indicated the work was part of the Project’s Milestone 2 activities,
as required by the ELC. In addition, the ELC methodology states the ELC must be followed by
both the IRS and the PRIME contractor for developing/acquiring business solutions as part of
Tier A modernization projects.10 Because the goals of the SSHP were to develop business
solutions in support of the CADE project (a Tier A modernization project) by identifying
business process redesign opportunities for the submission and settlement aspects of electronic
tax return processing, allocating high-level business rules sets to modernized systems, and
identifying architectural alternatives such as potential reuse of the current processing
environment, one could interpret the ELC guidance as applying to the SSHP.
Regardless of whether the ELC methodology is appropriate for the SSHP, Project Management
Plans are a basic management control used to document planned project activities, obtain
executive management approval and concurrence, provide estimated completion dates, assign
tasks to appropriate staff members, and track progress on completing the tasks. Reliable project
management information, as well as appropriate supporting documentation, provides evidence of
activities that have been executed and ensures staff accountability in completing assigned tasks.
For instance, a current work plan allows management to identify and address activities falling
behind schedule.

Recommendation
Recommendation 3: The CIO should ensure the SSHP Project Management Plan is
completed, approved, and updated according to established standards, including the ELC, the
Internal Revenue Manual, and the best practices of the Office of Management and Budget and
the Government Accountability Office.
        Management’s Response: The CIO agreed with this recommendation, stating that
        the SSHP Project Management Plan was completed and signed on October 11, 2005.




10
  Tier A modernization projects are large automation development activities that support basic tax functions and
usually affect multiple IRS business organizations.
                                                                                                          Page 10
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



The Business Rules Repository May Not Be Procured Timely and
Needs to Meet Requirements of All Customers
The business rules repository acquisition is at risk of not being procured in time to meet the
CADE Release 3 planning needs. The business rules repository, planned for operation by
January 2006, will be used by modernization projects such as the CADE to harvest, store, access,
and manage their project-level business rules. Although the IRS currently uses several types of
applications to act as a data or business rules repository, IRS management stated these
applications do not provide the desired capabilities and controls. The desired capabilities and
controls include ready access to business rules and business rule sets and the ability to manage
and properly catalog different versions of business rules.
At the June 9, 2005, meeting of the Business Rules Advisory Board, the CADE project team
requested the new repository be operational by October 1, 2005, to allow for use of the new tool
during training for CADE Release 3 planning activities scheduled for October through the end of
December 2005. However, the Business Rules Office stated it will not be possible to procure a
new repository by October 1, 2005, 3 months earlier than the originally planned January 2006
implementation. Because the new business rules repository acquisition is needed for training
related to CADE Release 3 planning activities by October 1, 2005, its effectiveness is at risk
because it may not be operational until January 2006.
To reduce the effects of not having the selected repository
operational during CADE training, the Business Rules Office            Alternatives for managing
stated strategies are in place to allow CADE engineers to gain         business rules are being
                                                                       considered if a business
familiarity with the new repository tools during preliminary             rules repository is not
testing. Also, the IRS will attempt to obtain a copy of the selected    acquired when needed.
repository prior to completion of the acquisition contract.
The IRS received limited response in July 2005 to its initial business rules repository
procurement request from approved vendors. Subsequently, in August 2005, the IRS opened the
repository acquisition process to an unlimited vendor audience by requesting industry comments
on a draft statement of work prior to soliciting formal proposals to acquire a repository. The
Business Rules Repository acquisition team plans to contract with a vendor by the end of
December 2005 and to implement use of the repository in February or March 2006.




                                                                                         Page 11
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed



The Business Rules Office should coordinate its needs for the new business
rules repository with the Configuration Management Office
The Internal Revenue Manual requires software development, improvement activities, or project
commitments to be coordinated and negotiated across the organization. The Business Rules
Office stated it was coordinating with the Modernization and Information Technology Services
organization Requirements Management Office and Configuration Management Office.
The Business Rules Repository acquisition project manager coordinated with the Requirements
Management Office. This coordination considered specifications of the IRS’ Enterprise
Architecture.11 Considering the software tool compatibility with the Enterprise Architecture will
allow acquisition of a business rules repository that can work with Requirements Management
Office tools.
On June 15, 2005, we inquired about coordination of the
acquisition of the business rules repository between the      Coordinating the business rules
Business Rules Office and the Configuration Management         repository acquisition with the
                                                                 Configuration Management
Office. The Business Rules Office had not made any                 Office will help ensure
contacts at that time and subsequently had one conversation     conformity with configuration
with the Configuration Management Office in early                 management processes.
July 2005. The Business Rules Office informally shared its
objectives with the Configuration Management Office after a weekly SSHP project management
meeting.
Configuration management involves establishing proper controls over approved project
documentation, hardware, and software. It also assures changes are authorized, controlled, and
tracked. Generally, the BSM project teams work with configuration management offices staffed
by the PRIME contractor and the Modernization and Information Technology Services
organization Information Technology Services office.
Coordination with the Configuration Management Office will help to ensure the acquired
repository will have the ability to manage business rules in a manner meeting the needs and
requirements of the Configuration Management Office.




11
  The architecture is the design of a computer system. It sets the standard for all devices that connect to it and all
the software that runs on it. The modernized architecture guides the organization of the BSM effort.
                                                                                                               Page 12
                        Instilling More Discipline to Business Rules Management
                               Will Help the Modernization Program Succeed



Recommendation
Recommendation 4: The CIO should ensure the Business Rules Office coordinates with the
Configuration Management Office to clarify configuration management roles and processes for
use of a business rules repository.
         Management’s Response: The CIO agreed with this recommendation and stated the
         team developing the requirements for the repository met with the Configuration
         Management Office and solicited its input. The Configuration Management Office
         confirmed its concurrence with the roles and processes that the Business Rules
         Management Office will use to manage the repository.

Additional Actions Are Needed to Ensure the Successful Integration
of Business Rules Engine Technology
The main objectives of the Business Rules End-to-End Prototype were to determine whether a
business rules engine technology should be used within the CADE and to validate the business
rules harvesting methodology. To accomplish this, the Business Rules End-to-End Prototype
evaluated the benefits of using a business rules engine, the C++ programming language, or a
combination of both to operate the CADE. For this evaluation, the Business Rules End-to-End
Prototype used approximately 163 Spousal Offset12 business rules. The Spousal Offset business
rules were selected because IRS management believed they provided the complexity needed to
ensure IRS business rules as a whole were adequately represented during the Business Rules
End-to-End Prototype testing.
The PRIME contractor timely delivered the Business Rules End-to-End Prototype Project results
to the IRS on August 12, 2005, and concluded a business rules engine is not a prerequisite for
any CADE applications. However, if a business rules engine were to be used, the Prototype
suggested it would be best used to manage rules such as those for fraud detection.
The Prototype results showed a business rules engine should be considered only when the
following six criteria are met:
     •   Performance and capacity are not major considerations.
     •   The rules are highly volatile and the business needs to change the rules often.
     •   A large percentage of rules contain statements with facts (declarative statements).
     •   The total number of rules within a specific process area is high.
     •   Rule testing requirements are complex.
     •   It is desirable to have business analysts to develop rules.


12
  The Spousal Offset affects refunds for either spouse or ex-spouse when a prior year tax return has an outstanding
balance.
                                                                                                           Page 13
                     Instilling More Discipline to Business Rules Management
                            Will Help the Modernization Program Succeed



Additionally, the Business Rules End-to-End Prototype determined applying the full business
rules management methodology for all business rules in the CADE program would significantly
challenge IRS resource capacity, financial resources, and timelines. For example, the Business
Rules End-to-End Prototype measured 2.8 hours to harvest 1 of the estimated 25,000 business
rules to be harvested from the current systems, indicating that in excess of 30 staff years would
be needed to complete the harvesting process. The Prototype results suggest using other
approaches to capture and document existing business rules when the full business rules
management analysis is not required to successfully implement CADE applications.
Presentations about the Business Rules End-to-End Prototype to IRS executives occurred
between August 26, 2005, and September 19, 2005.
While the Business Rules End-to-End Prototype was conducted timely, performance and cost
issues need to be addressed to fully assess the IRS’ ability to successfully use a business rules
engine. Appendix IV presents industry criteria for selection of a business rules engine.

The Business Rules End-to-End Prototype did not include performance testing
for business rules technology
One aspect of performance testing is to determine the number of business rules that can be
processed per second, which is measured in millions of instructions per second (MIPS). Each
MIPS costs approximately $6,000 per year. Previous performance testing estimated a business
rules engine used between 6,000 and 9,000 MIPS during peak volume, which is cost prohibitive.
If business rules engine technology is integrated into the CADE Release 3 or future releases,
additional performance testing needs to be part of the overall evaluation process to ensure
processing capacity (MIPS) can meet CADE requirements. At a minimum, performance testing
should include business rules requiring high computer processing speed and numerous accesses
to the business rules engine. Additionally, to make sure MIPS use is accurately measured,
performance testing should be conducted in the same computer environment that will be used
during live operations. Underestimation of the MIPS required by the CADE will significantly
affect the IRS’ ability to process tax returns.

The Business Rules End-to-End Prototype did not include a cost analysis for
business rules engine technology
If business rules engine technology is integrated into the CADE Release 3 or future releases, a
cost analysis of hardware, software, and maintenance requirements also needs to be a part of the
overall evaluation process. A cost analysis has not been performed during the Business Rules
End-to-End Prototype. IRS management recognizes a cost analysis will help to determine the
funds needed for the purchase and ongoing maintenance of a business rules engine.
In June 2001, a cost analysis was not performed when the BSMO and the PRIME contractor
were considering a business rules engine for use in the CADE Release 1. In November 2001, the
negotiations between the PRIME contractor and the business rules engine vendor broke down
                                                                                            Page 14
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



when the complete purchase price was determined to be too high. This determination was not
made in time to consider another business rules engine for use in CADE Release 1.
In October 2003, the Software Engineering Institute stated the failure to acquire a business rules
engine to implement business rules stalled the CADE project. The inability to secure a business
rules engine vendor mandated a complete shift in execution philosophy when the PRIME
contractor implemented the business rules in C++ programming language. If a business rules
engine is deemed appropriate, a cost analysis must be conducted so business rules engine
technology needs can be put into the annual IRS budget cycle.

Recommendation
Recommendation 5: To help ensure the efficient and effective development of the CADE
project, the CIO should ensure performance testing and a cost analysis are completed before
making any decision to use business rules engine technology in the CADE project. If the use of
business rules engine technology is anticipated for a CADE release, performance testing and a
cost analysis should be built into the CADE release schedule.
       Management’s Response: The CIO agreed with the recommendation and stated IRS
       management decided not to use a business rules engine in CADE Releases 2 and 3.
       Modernization efforts going forward will continue to employ the Package Evaluation and
       Selection methodology contained in the ELC if the IRS determines a business rules
       engine software package offers an opportunity for a specific solution within
       modernization projects.




                                                                                           Page 15
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed



                                                                                                      Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to assess the process for considering use of business
rules engine1 technology, determine whether business rules harvesting2 activities will be timely
completed, and determine whether the adequacy of actions taken to address the Business
Systems Modernization (BSM) Challenge Issues related to the business rules management
activities. This is the first phase of a two-phase review to determine whether the Customer
Account Data Engine (CADE) project management and development activities are effective in
assuring future releases of the CADE include all planned functionality and are implemented
within cost and schedule estimates. This review is part of our Fiscal Year 2005 audit plan for
reviews of the Internal Revenue Service’s BSM efforts.
To accomplish our objectives, we reviewed available documentation and interviewed
Business Systems Modernization Office (BMSO) personnel, Submission and Settlement
Harvesting Project (SSHP) managers and analysts, and Modernization Acquisition function
analysts from the Agency-Wide Shared Services organization. Specifically, we:
I.       Determined whether the BSMO was taking appropriate actions to assess business rules
         engine technology for use in the CADE. We made this determination by interviewing
         BSMO staff and obtaining documentation to determine:
         A. The criteria to select a business rules engine vendor for the Business Rules
            End-to-End Prototype.3
         B. The criteria to use business rules engine technology for the CADE.
         C. Whether the Business Rules End-to-End Prototype testing will provide adequate data
            and information to make a determination to implement a business rules engine, use
            C++4 programming, or use a combination of both.



1
  A business rule is a statement that defines or constrains some aspect of the business. A business rules engine
translates business rules, or processing criteria, into executable computer code which processes transactions related
to a tax form and selects and executes correct rules based on the tax year and tax form.
2
  Harvesting is a general term used to broadly describe the entire set of activities involved in gathering, formalizing,
analyzing, and validating business rules for a particular scope.
3
  The Business Rules End-to-End Prototype will assist in determining if a business rules engine is the correct
strategy for the CADE.
4
  Programmers can write or code software programs using several different programming languages. C++ is an
object-oriented, high-level programming language developed by Bell Labs.
                                                                                                               Page 16
                   Instilling More Discipline to Business Rules Management
                          Will Help the Modernization Program Succeed



II.    Determined whether business rules harvesting activities will be timely completed in
       support of the CADE’s needs and project schedule. We made this determination by:
       A. Interviewing BSMO, Wage and Investment Business Unit, and Modernization
          Acquisition function managers and analysts and obtaining documentation about:
          1. The Business Rules Enterprise Management project activities in providing
             support to the CADE project.
          2. The SSHP activities in providing support to the CADE project.
          3. The criteria and status of the business rules repository suite acquisition.
       B. Interviewing SSHP project staff about their efforts to coordinate the development of
          business rules harvesting with all necessary stakeholders.
III.   Determined whether the actions taken to address the BSM Challenge Issues have
       improved the management of the CADE project to successfully move forward.




                                                                                           Page 17
                   Instilling More Discipline to Business Rules Management
                          Will Help the Modernization Program Succeed



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Louis V. Zullo, Senior Auditor
Steven Gibson, Auditor
Kim McManus, Auditor




                                                                                     Page 18
                  Instilling More Discipline to Business Rules Management
                         Will Help the Modernization Program Succeed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:E
Director, Office of Procurement OS:A:P
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 19
                     Instilling More Discipline to Business Rules Management
                            Will Help the Modernization Program Succeed



                                                                                   Appendix IV

Criteria for the Selection of a Business Rules Engine

When selecting a business rules engine vendor, the focus should be on ease of
integration, ease of development, and testing qualities
A business rules engine obtains results by interpreting business rules expressed as sentences in
everyday language, such as “if/then” statements. The business rules express exactly the rules
that apply, not the sequence of actions needed to obtain a result like in classical and sequential
programming language.
Forrester, an independent technology research company, lists the following attributes that should
be considered when selecting a business rules engine:
•   Integration capabilities into development and production environments.
•   The quality of developer and business analyst tools.
•   The capability to simply express complex business rules.
•   A user-friendly interface for business users, including some capability to change rules during
    the actual execution of the program.
•   Performance, for example the number of rules processed per second.
•   Debugging, diagnosis, and quality explanation of results.
•   The ability to use data stored in databases through diverse interfaces such as Extensible
    Markup Language.
•   Repository storing rules and version management of rules.




                                                                                            Page 20
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed



                                                                                                   Appendix V

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle defines the processes, products, techniques, roles, responsibilities,
policies, procedures, and standards associated with planning, executing, and managing business
change. It includes redesign of business processes; transformation of the organization; and
development, integration, deployment, and maintenance of the related information technology
applications and infrastructure. Its immediate focus is the Internal Revenue Service (IRS)
Business Systems Modernization (BSM) program. Both the IRS and the PRIME contractor1
must follow the Enterprise Life Cycle in developing/acquiring business solutions for
modernization projects.
The Enterprise Life Cycle framework is a flexible and adaptable structure within which one
plans, executes, and integrates business change. The Enterprise Life Cycle process layer was
created principally from the Computer Sciences Corporation’s Catalyst® methodology.2 It is
intended to improve the acquisition, use, and management of information technology within the
IRS; facilitate management of large-scale business change; and enhance the methods of decision
making and information sharing. Other components and extensions were added as needed to
meet the specific needs of the IRS BSM program.

Enterprise Life Cycle Processes
A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The Enterprise Life Cycle
methodology includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
business change.
Management Processes, which are organized into management areas and operate across the
entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                             Page 21
                                       Instilling More Discipline to Business Rules Management
                                              Will Help the Modernization Program Succeed



                                                     Enterprise Life-Cycle Processes


                                    IRS Governance and Investment Decision Management
  Management




                                             Program Management and Project Management

                                    Architectural Engineering / Development Coordination

                                                     Management Support Processes


                                                                                                  Business Processes




                                                                                                                           Operations & Support
                                                                                                          Applications
                Vision & Strategy




                                                      Development
                                      Architecture




                                                                                  Deployment
                                                                    Integration
  Life Cycle




                                                                                                                  Data


                                                                                               Organizational Change


                                                                                               Technical Infrastructure


                                                                                               Facilities Infrastructure


Source: Enterprise Life Cycle Guide, Page 2-16.




Life-Cycle Processes
The life-cycle processes of the Enterprise Life Cycle are divided into six phases, as described
below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.




                                                                                                                                           Page 22
                    Instilling More Discipline to Business Rules Management
                           Will Help the Modernization Program Succeed



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes
Besides the life-cycle processes, the Enterprise Life Cycle also addresses the various
management areas at the process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.

                                                                                            Page 23
                     Instilling More Discipline to Business Rules Management
                            Will Help the Modernization Program Succeed



   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones
The Enterprise Life Cycle establishes a set of repeatable processes and a system of milestones,
checkpoints, and reviews that reduce the risks of system development, accelerate the delivery of
business solutions, and ensure alignment with the overall business strategy. The Enterprise Life
Cycle defines a series of milestones in the life-cycle processes. Milestones provide for
“go/no-go” decision points in the project and are sometimes associated with funding approval to
proceed. They occur at natural breaks in the process where there is new information regarding
costs, benefits, and risks and where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
   •   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
   •   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
       activities are separated by two checkpoints. Activities leading up to Milestone 4A
       involve further requirements definition, production of the system’s physical design, and
                                                                                           Page 24
                Instilling More Discipline to Business Rules Management
                       Will Help the Modernization Program Succeed



    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                     Page 25
                         Instilling More Discipline to Business Rules Management
                                Will Help the Modernization Program Succeed



                                                                                           Appendix VI

          Overview of the Standards for Internal Control
                  in the Federal Government                                       1




The Federal Managers’ Financial Integrity Act of 19822 requires the Government Accountability
Office to issue standards for internal control in the Federal Government. Rapid advances in
information technology have underscored the need for updated guidance on internal controls
over modern computer systems. At the same time, the management of human capital is
increasingly recognized as an important part of internal control.

Internal Control Definition and Objective
Internal control is a major part of managing an organization. It comprises the plans, methods,
and procedures used to meet missions, goals, and objectives and, in doing so, support
performance-based management. Internal control also serves as the first line of defense in
safeguarding assets and preventing and detecting errors and fraud. In short, internal control,
which is synonymous with management control, helps Federal Government program managers
achieve desired results through effective stewardship of public resources.
Internal control should provide reasonable assurance that the objectives of the agency are being
achieved in the following categories:
      •   Effectiveness and efficiency of operations, including the use of the entity’s resources.
      •   Reliability of financial reporting, including reports on budget execution, financial
          statements, and other reports for internal and external use.
      •   Compliance with applicable laws and regulations.




1
    Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
2
    31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                                                                                     Page 26
                     Instilling More Discipline to Business Rules Management
                            Will Help the Modernization Program Succeed



The Five Standards for Internal Control
The five standards for internal control are:
   •   Control Environment – Management and employees should establish and maintain an
       environment throughout the organization that sets a positive and supportive attitude
       toward internal control and conscientious management.
       A positive control environment is the foundation for all other standards. It provides
       discipline and structure as well as the climate that influences the quality of internal
       control. The following key factors affect the control environment:
        -   The integrity and ethical values maintained and demonstrated by management and
            staff.
        -   Management’s commitment to competence, including the attitude and philosophy
            toward information systems, accounting, personnel functions, monitoring, and audits
            and evaluation, can have a profound effect on internal control.
        -   The agency’s organizational structure and management framework for planning,
            directing, and controlling operations to achieve agency objectives.
        -   Good human capital policies, including establishing appropriate practices for hiring,
            training, evaluating, counseling, promoting, compensating, and disciplining
            personnel.
        -   The agency’s relationship with Congress and oversight agencies such as the Office of
            Management and Budget, Inspectors General, and internal senior management
            councils can contribute to a good overall control environment.
   •   Risk Assessment – Internal control should provide for an assessment of the risks the
       agency faces from both external and internal sources.
       A precondition to risk assessment is the establishment of clear, consistent agency
       objectives. Management needs to comprehensively identify risks and should consider all
       significant interactions between the entity and other parties as well as internal factors at
       both the entity-wide and activity levels.
       Once risks have been identified, they should be analyzed for their possible effect. Risk
       analysis generally includes estimating the risk’s significance, assessing the likelihood of
       its occurrence, and deciding how to manage the risk and what actions should be taken.
       Because governmental, economic, industry, regulatory, and operating conditions
       continually change, mechanisms should be provided to identify and deal with any special
       risks prompted by such changes.



                                                                                            Page 27
                 Instilling More Discipline to Business Rules Management
                        Will Help the Modernization Program Succeed



•   Control Activities – Internal control activities help ensure management’s directives are
    carried out. The control activities should be effective and efficient in accomplishing the
    agency’s control objectives.
    Control activities are the policies, procedures, techniques, and mechanisms that enforce
    management’s directives, such as the process of adhering to requirements for budget
    development and execution. They help to ensure actions are taken to control risks.
    Control activities are an integral part of an entity’s planning, implementing, reviewing,
    and accountability for stewardship of Federal Government resources and achieving
    effective results. Examples of control activities include:
    -   Reviews by management at the functional or activity level.
    -   Controls over information processing.
    -   Physical control over vulnerable assets.
    -   Establishment and review of performance measures and indicators.
    -   Segregation of duties.
    -   Proper execution of transactions and events.
    -   Access restrictions to and accountability for resources and records.
    -   Appropriate documentation of transactions and internal control.
•   Information and Communication – Information should be recorded and communicated
    to management and others within the entity who need it and within a time period that
    enables them to carry out their internal control and other responsibilities.
    For an entity to run and control its operations, it must have relevant, reliable, and timely
    communications relating to internal as well as external events. Information is needed
    throughout the agency to achieve all of its objectives.
    Program mangers need both operational and financial data to determine whether they are
    meeting their agencies’ strategic and annual performance plans and meeting their goals
    for accountability for effective and efficient use of resources. For example, operational
    information is required for development of financial reports. Financial information is
    needed for both external and internal uses. It is required to develop financial statements
    for periodic external reporting and, on a day-to-day basis, to make operating decisions,
    monitor performance, and allocate resources.
    Effective communications should occur in a broad sense with information flowing down,
    across, and up the organization. In addition to internal communications, management
    should ensure there are adequate means of communicating with, and obtaining


                                                                                         Page 28
                 Instilling More Discipline to Business Rules Management
                        Will Help the Modernization Program Succeed



    information from, external stakeholders that may have a significant impact on the agency
    achieving its goals.
•   Monitoring – Internal control monitoring should assess the quality of performance over
    time and ensure the findings of audits and other reviews are promptly resolved.
    Internal control should generally be designed to assure ongoing monitoring occurs in the
    course of normal operations. It is performed continually and is ingrained in the agency’s
    operations. It includes regular management and supervisory activities, comparisons,
    reconciliations, and other actions people take in performing their duties.
    Monitoring of internal control should include policies and procedures for ensuring the
    findings of audits and other reviews are promptly resolved. Managers are to (1) promptly
    evaluate findings from audits and other reviews, including those showing deficiencies
    and recommendations reported by auditors and others who evaluate agencies’ operations;
    (2) determine proper actions in response to findings and recommendations from audits
    and reviews; and (3) complete, within established time periods, all actions that correct or
    otherwise resolve the matters brought to management’s attention.




                                                                                       Page 29
      Instilling More Discipline to Business Rules Management
             Will Help the Modernization Program Succeed



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 30
Instilling More Discipline to Business Rules Management
       Will Help the Modernization Program Succeed




                                                     Page 31
Instilling More Discipline to Business Rules Management
       Will Help the Modernization Program Succeed




                                                     Page 32
Instilling More Discipline to Business Rules Management
       Will Help the Modernization Program Succeed




                                                     Page 33
